July 20, 2009

MEGAN J. BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT:        Audit Report – Postal Vehicle Service Transportation Routes –
                Philadelphia Processing and Distribution Center
                (Report Number NL-AR-09-006)

This report presents the results of our audit of the Philadelphia, PA, Processing and
Distribution Center’s (P&DC) Postal Vehicle Service (PVS) transportation routes
(Project Number 09XG009NL000). Our objectives were to determine whether selected
PVS vehicle operations were effective and economical. The report is the eighth in a
series of reports responding to a request from the Postal Service’s Vice President,
Network Operations, for audit work in this area. The Postmaster General (PMG) also
requested we audit the overall adequacy of mail transportation in Philadelphia. See
Appendix A for additional information about this audit.

Conclusion

Postal Service officials at the Philadelphia P&DC are actively reducing transportation
requirements based on operational needs and shifting workloads. However, the
Philadelphia P&DC could more effectively manage PVS transportation processes and
schedules, thereby reducing driver workhours and associated fuel use and damage
claims. Additionally, management could eliminate or consolidate underutilized trips
from highway contract routes (HCRs) that serve the facility. Once these changes occur,
we estimate the Postal Service could save about $5.4 million over 10-years. The
reduction in PVS transportation fuel use would also help achieve fuel consumption
goals.

Excess Workhours and Associated Cost Reductions for Postal Vehicle Service

Philadelphia P&DC officials were not always effectively managing PVS transportation
processes and schedules as evidenced by unassigned driver time, duplicate trips, and
underutilized trips. This occurred because management did not routinely conduct
schedule and vehicle utilization reviews. We concluded that management could remove
8,870 excess workhours from existing PVS schedules and reduce related fuel use and
costs as well as damage claims, thereby saving about $4.2 million over a 10-year
period. In addition, the actions would help achieve fuel consumption goals in the Postal
Postal Vehicle Service Transportation Routes –                                      NL-AR-09-006
 Philadelphia Processing and Distribution Center


Service’s National Energy Plan by reducing fuel use for Postal Service-owned vehicles.
See Appendix B for our detailed analysis of this topic.

Subsequent Events - Postal Vehicle Service Changes at Philadelphia P&DC

At the end of our audit work, Philadelphia P&DC transportation officials agreed to
eliminate 15,386 hours from their PVS workload due to inefficiencies identified in PVS
schedules. Since then, however, Postal Service officials in the Philadelphia District
have started several initiatives (including being one of three pilot sites selected to
participate in the Postal Service’s revamping of its Bulk Mail Center facilities) that affect
our initially reported workhour and monetary impact amounts. These initiatives
necessitated multiple PVS schedule adjustments in the Philadelphia District due to the
changes made to the distribution requirements and transportation functions at the Bulk
Mail Centers. This, along with other requests to change PVS morning dispatches
arriving at post offices in the Philadelphia District, required the Philadelphia P&DC
transportation staff to re-evaluate its position on several PVS schedules as identified in
our draft report. Based on our subsequent review of the operational changes, we
believe the Philadelphia P&DC is warranted in modifying its position on the elimination
of certain schedules. We discussed these changes with Eastern Area officials on
July 1, 2009, and modified our workhour and monetary impact amounts in this report to
reflect these subsequent changes.

We recommend the Vice President, Eastern Area Operations:

1. Ensure that Philadelphia Processing and Distribution Center managers follow
   prescribed fleet management procedures for making Postal Vehicle Service
   schedules effective, including conducting schedule and vehicle utilization reviews.

2. Verify elimination of the 6,859 workhours already agreed to by local and area
   management from Postal Vehicle Service trip schedules.

3. Reassess the remaining 2,011 workhours and eliminate the workhours as indicated
   by the reassessment, or document the reasons for retaining the workhours.

Other Matters - Cost Reductions for Highway Contract Routes

The Philadelphia P&DC could reduce the number of HCR trips and save about
$1.2 million over the term of existing contracts by eliminating or consolidating
underutilized trips. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Eastern Area Operations:

4. Verify the elimination of the eight trips identified during our audit by local
   management.




                                                   2
Postal Vehicle Service Transportation Routes –                                 NL-AR-09-006
 Philadelphia Processing and Distribution Center


5. Eliminate the 14 trips within the identified highway contract routes, already agreed to
   by local and area management.

6. Reassess the remaining two trips, and cancel or modify the trips as indicated by the
   reassessment, or document the reasons for retaining the trips.

Management’s Comments

Management agreed with our findings and recommendations. While management did
not agree with our 10-year estimated cost avoidance, they estimated the annual
monetary savings to be over $800,000. Management stated the Distribution Networks
department will conduct area-wide training emphasizing fleet management policies and
procedures. In addition, management agreed to reduce PVS trip schedules by 6,859
workhours and reassess the remaining 2,011 scheduled workhours identified in our
report.

Regarding the 24 highway contract routes recommended for elimination, management
agreed to eliminate 22 trips and reassess the two remaining trips. The Eastern Area
has already verified the elimination of eight of these highway contract routes. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to all recommendations and the corrective actions should resolve
the issues identified in the report.

The OIG considers recommendations 1, 2, 4, and 5 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                                   3
Postal Vehicle Service Transportation Routes –                             NL-AR-09-006
 Philadelphia Processing and Distribution Center



We will report $5,386,528 of monetary impact of funds put to better use in our
Semiannual Report to Congress. Although management did not agree with our total
monetary impact, we believe our estimates are valid based on the best data available
and given PVS operations at the facility.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Jordan M. Small
    Cynthia F. Mallonee
    Pamela S. Grooman
    Katherine S. Banks




                                                   4
Postal Vehicle Service Transportation Routes –                                                NL-AR-09-006
 Philadelphia Processing and Distribution Center


                             APPENDIX A: ADDITIONAL INFORMATION
BACKGROUND

Postal Service transportation includes both nationwide network transportation between
cities and major facilities and delivery transportation between local post offices and
neighborhood delivery and pickup points. Network transportation using Postal Service
vehicles and employees is called PVS. Management typically assigns PVS vehicles
and personnel to Postal Service network facilities, such as bulk mail centers or
processing and distribution centers in or near metropolitan areas. PVS operations are
normally conducted within 50 miles of the 162 Postal Service facilities. Nationwide,
PVS drivers travel about 150 million miles every year. Because PVS operations are
local, they are managed at the facility level under guidance from district, area, and
headquarters transportation officials.

PVS is capital and personnel intensive. PVS capital assets include 2,222 cargo vans,
1,869 tractors, and 4,182 trailers. Employees service and repair these vehicles at
319 Postal Service vehicle maintenance facilities (VMFs), VMF1 auxiliaries, and local
commercial garages nationwide. PVS currently involves about 10,000 employees,
including 8,482 uniformed drivers, 621 administrative support personnel, and
963 managers. The American Postal Workers Union represents PVS drivers and
support personnel.




                      Loading docks at the Philadelphia Processing and Distribution Center,
                             located at 7500 Lindberg Boulevard. February 9, 2009.

PVS operations typically include:
      •    Transportation to and from major facilities or local post offices.
      •    Transportation to and from major commercial business mailers.
      •    Yard operations, defined as the movement of trailers and equipment in or around
           a facility yard.
1
    A VMF Auxiliary is an extension of a VMF.




                                                       5
Postal Vehicle Service Transportation Routes –                                 NL-AR-09-006
 Philadelphia Processing and Distribution Center



OBJECTIVES, SCOPE, AND METHODOLOGY

This report directly responds to a request from the PMG regarding the overall adequacy
of mail transportation in Philadelphia. It also responds to a request from the Vice
President, Network Operations that we audit PVS operations nationwide. Because
individual facilities control PVS operations, we localized our audit approach. This report
focuses on PVS operations at the Philadelphia P&DC in the Postal Service’s Eastern
Area. The objectives of our audit were to determine whether PVS operations were
effective and economical.

During our work, we visited the Philadelphia P&DC, other regional facilities, and local
post offices. We reviewed relevant Postal Service policies and procedures, interviewed
managers and employees, and observed and photographed operations. We evaluated
the type of mail carried, considered on-time service standards, and visited major
commercial business mailers. We examined the cost of PVS operations, including the
cost of PVS personnel, fuel, and damage claims. We identified unassigned time and
trip duplications and analyzed potential trip consolidations.




                              A Philadelphia P&DC PVS mail hauling vehicle
                                     on the road. February 12, 2009.

Using Postal Service computer-generated data and other records, we analyzed 199
Philadelphia P&DC driver schedules, identified 330,331 workhours associated with
those schedules, and evaluated individual trips and trip-load volume. We conducted the
analysis to determine whether management could reduce workhours and labor costs as
well as associated fuel use and damage claims. We analyzed driver assignments to
determine whether drivers made duplicate or unproductive trips. We also reviewed the
fuel reduction initiatives for Postal Service-owned vehicles as contained in the Postal
Service’s National Energy Plan and determined whether our recommendations
impacted the initiatives.




                                                   6
Postal Vehicle Service Transportation Routes –                                       NL-AR-09-006
 Philadelphia Processing and Distribution Center



We conducted this performance audit from December 2008 through July 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on May 19, 2009, and included their
comments where appropriate. Additionally, on July 1, 2009, after receiving
management comments, we discussed changes to distribution requirements in the
Philadelphia District that resulted in multiple PVS schedule adjustments, and we
modified our report and recommendations to account for those changes.

We did not audit or comprehensively validate the computer-generated data used in our
analyses; however, we noted several data and other weaknesses that limited our work.
For example, some computer records had missing data and inaccurate load volumes.
Although these limitations constrained our work, we were able to compensate by
applying alternate audit procedures, including observation, physical inspection, and
discussion with appropriate officials. We also applied conservative principles to our
workhour and cost reduction estimates.

PRIOR AUDIT COVERAGE

At the request of the Vice President, Network Operations, the OIG has previously
worked with the Postal Service to reduce PVS costs. As indicated by the chart below,
since March 2007, we have issued seven audit reports that identified labor and other
potential savings exceeding $48.0 million. Management agreed with all our
recommendations. This report used the same methodology and had comparable
findings.

                                                                              Monetary Impact
             Report Title                Report Number   Final Report Date      (in millions)
 Postal Vehicle Service Transportation
 Routes – Memphis Processing and          NL-AR-07-003     March 30, 2007                $7.3
 Distribution Center
 Postal Vehicle Service Transportation
                                          NL-AR-07-006   September 21, 2007               4.9
 Routes – Los Angeles Bulk Mail Center
 Postal Vehicle Service Transportation
 Routes – Milwaukee Processing and        NL-AR-07-007   September 27, 2007               4.0
 Distribution Center
 Postal Vehicle Service Transportation
 Routes – San Francisco Processing        NL-AR-08-003     March 26, 2008                10.1
 and Distribution Center
 Postal Vehicle Service Transportation
 Routes – Northern Virginia Processing    NL-AR-08-006   September 25, 2008               8.0
 and Distribution Center




                                                   7
Postal Vehicle Service Transportation Routes –                                      NL-AR-09-006
 Philadelphia Processing and Distribution Center


                                                                             Monetary Impact
             Report Title                Report Number   Final Report Date     (in millions)
 Postal Vehicle Service Transportation
 Routes – Minneapolis Processing and      NL-AR-09-001   February 13, 2009               9.3
 Distribution Center
 Postal Vehicle Service Transportation
                                          NL-AR-09-005     July 17, 2009                 4.3
 Routes-Philadelphia Bulk Mail Center
                 Total                                                                 $48.0




                                                   8
Postal Vehicle Service Transportation Routes –                                                        NL-AR-09-006
 Philadelphia Processing and Distribution Center


                                APPENDIX B: DETAILED ANALYSIS

Excess Workhours and Associated Cost Reductions for Postal Vehicle Service

The Philadelphia P&DC could more effectively manage PVS transportation processes
and schedules to ensure efficiency. We found PVS schedules contained:

    •      Unassigned time when drivers were not needed for a specific trip or related
           activity.
    •      Duplicate trips.
    •      Underutilized trips that management could have consolidated.

This resulted because managers were not routinely conducting PVS schedule reviews
as required.2 In addition, given the dynamic and ever-changing transportation
environment, to maintain the effectiveness and efficiency of PVS operations, the Postal
Service requires management to perform vehicle utilization reviews at least annually to
determine vehicle need.3 According to Philadelphia P&DC management, they had not
performed this type of review.

We concluded the Philadelphia P&DC could reduce PVS workhours by 8,870 and save
about $4.2 million over 10 years without negatively affecting service. The Postal
Service would achieve more than 78 percent of the savings through personnel workhour
reductions; however, the Postal Service would also realize fuel cost and damage claim
savings, as depicted in Table 1.

             Table 1. Potential Savings (Personnel, Fuel, and Damage Claims)

                         Fiscal Year (FY) 2009           FY 2010             10-Year Total5
    Cost Category          Total4 (Phased in)         (Annual) Total       (FY 2009 to 2018)       Percentage
    Personnel                           $186,137              $366,159              $3,273,155              78.8
    Fuel                                  61,680                61,144                 593,216              14.3
    Damage Claims                         30,840                30,333                 286,576                6.9

           Total                        $278,657              $457,636              $4,152,947             100.0




2
  Handbook PO-701, Fleet Management, March 1991, Chapter 23, requires PVS operations to perform vehicle
utilization reviews at least annually to maintain effectiveness and efficiency.
3
  Handbook PO-701, Fleet Management, March 1991, Chapter 23, Section 233, specifically requires annual
completion of Postal Service (PS) Form 4575, MVS Vehicle Survey; PS Form 4572, Tractor Log; and PS Form 4569,
Vehicle Use Plan, to maintain effectiveness and efficiency.
4
  The FY 2009 figure is conservative to allow for phase-in of workhour reductions during the year. The FY 2009 total
represents $217,633 in savings (6,859 workhours) with management agreed and $61,024 in savings (2,011
workhours) with which management disagreed.
5
  The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted to
present value by applying factors published by Postal Service Headquarters Finance.




                                                         9
Postal Vehicle Service Transportation Routes –                                                       NL-AR-09-006
 Philadelphia Processing and Distribution Center


Further, the reduction in fuel costs supports the initiative of reducing fuel use in Postal
Service-owned vehicles as part of the Postal Service’s National Energy Plan.

Throughout our audit, we coordinated with local transportation managers and proposed
schedule realignments to them. The managers reviewed each proposal in conjunction
with their own assessment of operational requirements, and we discussed any
differences. Management agreed to 6,859 of the 8,870 workhours we identified as
unnecessary, and we believe the remaining 2,011 workhours could produce savings
without jeopardizing on-time performance.

Other Matters - Cost Reductions for Highway Contract Routes

We also determined the Philadelphia P&DC could improve the effectiveness of
scheduled HCRs and save about $1.2 million over the term of existing HCR contracts
by canceling 24 trips, as depicted in Table 2. The Postal Service could eliminate these
trips without negatively affecting on-time service because trip mail volume was low and
mail could be consolidated on other trips. During our audit, we provided management
with a list of these 24 trips and discussed our proposed service reductions. Philadelphia
P&DC management agreed with our conclusions for 22 of these trips; in fact,
management initiated the elimination of eight of these trips by April 2009. Management
disagreed with our assessment of the remaining two trips.6

            Table 2. Postal Service Initiated, Agreed, and Disagreed Savings
                              on HCR Contract Reductions

          Recommended              Contract            Number of
                                                                          Estimated Savings7
            Reduction              Number                Trips
                                     19014                    4                 $190,947
              Already
              Initiated             190A5                     4                  170,048

                                     19718                    4                  48,250

                                     18018                    2                  69,392
              Agreed
                                     18415                    2                  487,186

                                    190CD                     6                  109,179

             Disagreed               10424                    2                  158,579

                Total                                         24               $1,233,581




6
  Management stated they could not agree with our conclusion that these two trips could be consolidated, in part,
because they needed input from the New York Metro Area.
7
  Estimated savings are based on the remaining value of existing contracts and are negotiated between the Postal
Service and their suppliers.




                                                         10
Postal Vehicle Service Transportation Routes –              NL-AR-09-006
 Philadelphia Processing and Distribution Center


                        APPENDIX C: MANAGEMENT’S COMMENTS




                                                   11
Postal Vehicle Service Transportation Routes –          NL-AR-09-006
 Philadelphia Processing and Distribution Center




                                                   12
Postal Vehicle Service Transportation Routes –          NL-AR-09-006
 Philadelphia Processing and Distribution Center




                                                   13
